DOE/IG-0485




        AUDIT                     CORPORATE AND STAND-ALONE
                                     INFORMATION SYSTEMS
       REPORT                            DEVELOPMENT




                                       SEPTEMBER 2000




     U.S. DEPARTMENT OF ENERGY
    OFFICE OF INSPECTOR GENERAL
      OFFICE OF AUDIT SERVICES
                                    September 28, 2000


MEMORANDUM FOR THE SECRETARY

FROM:          Gregory H. Friedman (Signed)
               Inspector General

SUBJECT:       INFORMATION: Audit Report on "Corporate and Stand-Alone
               Information Systems Development"

BACKGROUND

The Department of Energy (Department) spends about $1.6 billion annually for the
acquisition and maintenance of information technology (IT) related resources. Over $500
million, or 32 percent of its IT-related budget, was for development, modernization, and
enhancements of systems at the Department and contractor level. The Department's IT
budget includes significant costs associated with the support of weapons programs such as
the Advanced Strategic Computing Initiative.

In recent years, the Department has attempted to leverage its IT resources by implementing
cross-cutting, corporate-level information systems and by establishing an aggressive
Strategic Plan and performance goals. These corporate systems are intended to serve many
organizations across the complex with similar information needs and eliminate redundant
systems and duplicative development. The Department has also established performance
measures in its Strategic Plan to achieve significant savings by implementing an Information
Technology Architecture and by better IT management.

The objective of our audit was to determine whether the Department’s corporate information
management systems were being duplicated by site-specific, stand-alone systems.

RESULTS OF AUDIT

We found that the Department has spent at least $38 million developing duplicative
information systems. Despite efforts to implement several corporate-level applications,
duplicative and/or redundant computer systems exist or are under development at virtually
all organizational levels within the Department:

    •   Many organizations continue to invest in custom or site-specific development efforts
        that duplicated corporate systems. This was despite Departmental guidance to the
        contrary.
.
                                               -2-


     •   Federal and contractor elements have routinely developed systems that duplicate functionality
         between and within sites and between program elements located at the same site.

We found that the Department has not fully developed and implemented an application software
investment strategy designed to reduce or eliminate duplicative systems.

MANAGEMENT REACTION

We recommended a series of actions designed to reduce expenditures and to prevent or reduce
duplicative systems developments. Management generally agreed and it proposed a number of
corrective actions that are responsive to the intent of our recommendations.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science, and Environment
    Under Secretary for Nuclear Security/Administrator for Nuclear Security
    Chief Information Officer
CORPORATE AND STAND-ALONE INFORMATION
SYSTEMS DEVELOPMENT



TABLE OF
CONTENTS

                 Overview


                 Introduction and Objective..………………………………………1

                 Conclusions and Observations ………………………………….1


                 Duplicative Systems Development

                 Details of Findings……………..………………………………….3

                 Recommendations and Comments………...………………….10


                 Appendices

                 1. Scope and Methodology..……….…………….…………….12

                 2. Related Office of Inspector General and
                    General Accounting Office Reports.……………….....……14

                 3. Information Systems Under Development..……………….15

                 4 . Management Comments..……………...…………………..16

                 5. Auditor Comments.…….………………………………….…20




Page 26
OVERVIEW

INTRODUCTION AND   The Department of Energy (Department) devotes a significant amount of its
OBJECTIVE          annual budget to the acquisition and maintenance of information technology
                   (IT) related resources. According to the Department's Fiscal Year 2000
                   budget request, $1.6 billion or 9 percent of the Department's annual budget of
                   $17.8 billion, was for the acquisition, operation, and maintenance of these
                   resources. Over $500 million, or 32 percent of the IT related budget, was for
                   development, modernization, and enhancements of systems at the
                   Department and contractor level. The Department's IT budget includes costs
                   incurred in support of weapons programs such as the Advanced Strategic
                   Computing Initiative.

                   In recent years, the Department has attempted to leverage its IT resources by
                   implementing cross-cutting, corporate-level information systems and by
                   establishing an aggressive Strategic Plan and performance goals. The
                   corporate systems are intended to serve many organizations within the
                   Department with similar information needs and eliminate redundant systems
                   and duplicative development. The Department established performance
                   measures in its Strategic Plan to achieve $100 million in savings by
                   implementing a Departmentwide information architecture and an additional
                   $245 million of savings through better IT management. The Department has
                   reported that its efforts to improve IT development have resulted in the
                   achievement of its Strategic Plan performance measures ahead of schedule
                   and in savings or cost avoidances of $325 million.

                   The objective of this audit was to determine whether the Department’s
                   corporate information management systems are being duplicated by site-
                   specific, stand-alone systems.


CONCLUSIONS AND    Duplicative and/or redundant computer systems exist or are under
OBSERVATIONS       development at virtually all organizational levels within the Department.
                   Despite efforts to implement several corporate-level applications, many
                   organizations continued to invest in custom or site-specific development
                   efforts that duplicated corporate functionality. Programs, sites and
                   contractors have also developed a number of administrative and
                   programmatic information systems that duplicate the functionality of systems
                   in use by other Departmental elements. The Department has been




Page 1                                                            Introduction and Objective/
                                                               Conclusions and Observations
         unable to control development and eliminate duplicative systems
         because it has not developed and implemented an application software
         investment strategy. As a result, the Department has spent at least
         $38 million on duplicative information systems.

         Management should consider the issues discussed in this report when
         preparing the yearend assurance memorandum on internal controls.




                                                      Signed
                                            Office of Inspector General




Page 2                                        Conclusions and Observations
DUPLICATIVE SYSTEMS DEVELOPMENT
Redundant Information   Duplicative and/or redundant computer systems exist or are under
Systems                 development at virtually all organizational levels within the
                        Department. Despite efforts to implement Departmentwide
                        applications, many organizations continued to invest in custom or site-
                        specific development efforts that duplicated corporate functionality.
                        Programs, sites and contractors have also developed a number of
                        administrative and programmatic information systems that duplicate
                        systems in use by other Departmental elements. Despite challenges
                        imposed by poor record keeping and incomplete system inventories, we
                        identified many duplicative site and contractor-level systems supporting
                        functions such as waste tracking, personnel/training, and nuclear
                        materials tracking that demonstrate the cumulative effect of long-
                        standing problems with duplicative development.

                                            Duplication of Corporate-Level Systems

                        Development of applications that duplicated corporate-level systems
                        were observed at each of the sites audited. Duplication existed at both
                        the Federal and contractor level, and covered a number of functional
                        areas. On the Federal level, a number of developments were either
                        ongoing or had been recently completed that duplicated the
                        functionality of a major Departmental information system, the
                        Corporate Human Resources Information System (CHRIS). Certain
                        locations also continue to maintain or were developing electronic
                        commerce procurement systems that duplicate features found in the
                        Department’s Electronic Commerce World Wide Web (DOE/CWeb)
                        procurement system. Certain organizations were also developing and
                        implementing a number of site-level nuclear material tracking systems
                        that duplicated functions available in the Local Area Network Material
                        Accountability System (LANMAS).

                                                         Human Resources

                        Despite guidance to the contrary, each site was either developing or
                        maintaining systems that duplicate CHRIS functionality. For example,
                        Savannah River spent about $1 million through April 2000 developing
                        a human resources and training system that duplicated planned CHRIS
                        features even though the Department had instructed all sites to
                        discontinue development in that area. Despite knowledge that the
                        development was ongoing, Headquarters officials did not move to
                        formally block development efforts until March 2000. 1 Similarly, the

                        1
                            The Office of Inspector General, Office of Inspections, is conducting a
                             separate inspection of the Savannah River development effort.


Page 3                                                                                 Details of Finding
         Richland Operations Office spent about $500,000 to upgrade its human
         resource system that duplicates current and planned CHRIS functions.
         The Richland development effort is particularly noteworthy in that it
         requires the duplicate entry of data, once for the local system and again
         for CHRIS, for all personnel actions. In March 2000, the Albuquerque
         Operations Office began upgrading a portion of their human resource
         system to a non-CHRIS application. While not engaged in additional
         development efforts, the Oak Ridge Operations Office continues to
         maintain local systems that duplicate CHRIS functionality.

                                 Electronic Procurement

         Many of the Department’s major sites were developing or maintaining
         procurement systems that could duplicate features of DOE/CWeb, the
         Department’s corporate system for electronic commerce. The
         Department began development of DOE/CWeb, a web-based electronic
         commerce procurement system for simplified acquisitions in 1995, and
         had accumulated development costs of at least $2.5 million through
         February 2000. Even though most major sites had adopted a
         procurement solution that included electronic commerce features, the
         Department required that they implement DOE/CWeb for simplified
         acquisitions. Since DOE/CWeb is designed to support only simplified
         acquisitions, sites are compelled to develop or maintain additional
         procurement systems. For example, seven major sites have adopted a
         commercial-off-the-shelf software (COTS) package that incorporates
         electronic commerce capabilities as their main procurement vehicle.
         Therefore, each site will be required to maintain multiple procurement
         systems that contain electronic commerce capabilities for the
         foreseeable future.

                           Nuclear Materials Tracking Systems

         Despite Departmental suggestions to the contrary, contractors continued
         to develop or maintain various duplicative site-level systems for nuclear
         materials accountability. These development and maintenance
         activities continued even though LANMAS, a system in which the
         Department had invested over $6 million, had specifically been made
         available to all contractors. While LANMAS was being implemented
         at 8 sites, at least 13 other major site-level nuclear materials tracking
         systems remained in use between contractors and sites. Expenditures
         for separate development and maintenance of these non-standard
         systems were ongoing and continuous. Most notable of these efforts
         were those undertaken by contractors at the Oak Ridge and Los Alamos
         sites. Contractors at Oak Ridge had expended about $15 million

Page 4                                                        Details of Finding
                             developing its Dynamic Materials Control Accountability System,
                             while those at Los Alamos had invested at least $2.4 million in
                             development of the Integrated Nuclear Materials Information System.

                             Recent planning activities by the Department to develop a business case
                             for a replacement corporate-level nuclear materials tracking system
                             further demonstrates the extent of duplication across the Department.
                             The ongoing process has determined there were at least 57 different
                             (Headquarters, site, and facility level) nuclear material accountability
                             systems in use as of April 2000. The study noted that of the 57
                             systems, 10 are currently under development and 17 have plans for
                             major modifications. Of the $217 million currently being spent
                             annually by the Department to manage, use, track, and report
                             information on nuclear materials inventory, approximately $70 million
                             is spent for maintenance of these systems.

                                                          Cumulative Results

                             Duplicative development of information systems is a long-standing
                             issue at the Department, and has resulted in a proliferation of redundant
                             information systems. Federal and contractor elements have routinely
                             developed duplicate functionality between and within sites and between
                             program elements located at the same site. Based on our evaluation of
                             Headquarters and just four major sites, we identified over
                             3,700 separate applications and over 130 in-process development
                             efforts (see Appendix 3 for development figures). The following table
                             illustrates the diversity of information systems and the potential for
                             consolidation and/or coordinated development efforts among the sites
                             audited:


         System Category               Richland   Oak Ridge Albuquerque   Savannah   Headquarters    Total
                                                                            River                   Systems
         Waste Tracking                  19          44          9          13            1           86
         Procurement                     11          16         30          10            3           70
         Human Resources/ Training       31         117         17          70            7          242
         Medical/ Bioassay                6          35         15          22            0           78
         Security                        14          44         37          16            4          115
         Document Tracking               35          70         50          26            2          183
         Nuclear Material Management      4          9          11          12            0           36
         Other                           442        456         708        1,287         47         2,940
         Total                           562        791         877        1,456         64         3,750


Page 5                                                                                Details of Finding
         In addition to development data gathered by our audit team, a recent
         study of information systems development activities at the Savannah
         River Operations Office emphasizes and adds specificity regarding
         site-level duplicative development efforts. This study, commissioned
         by the Savannah River Operations Office and performed by
         DynCorp, concentrated on applications developed or procured
         specifically for Federal customers at the site. The study found that
         Savannah River had 399 separate systems and concluded that a high
         percentage of those systems duplicated functionality across
         organizations. For example, the report pointed out that the various
         elements had developed 27 different action-tracking systems.
         Essentially, each Savannah River organization maintained its own
         action-tracking system, with each system tracking virtually the same
         type of data. The study also confirmed that Savannah River had
         developed systems that unnecessarily duplicated systems deployed by
         Headquarters.

         The development of duplicative or redundant waste information
         tracking systems at the contractor level consumed significant
         resources and exacerbated system proliferation problems. For
         example, in the 1990s contractors at Idaho National Engineering and
         Environmental Laboratory (INEEL), Savannah River, Oak Ridge,
         and Sandia all developed waste information tracking systems. In
         1992, INEEL contractors developed a system to track hazardous
         waste generation, storage, and disposal to be used at Department and
         Federal facilities/installations. Around the same time the Department
         began development of similar systems at other sites with an estimated
         cost of $16 million. Savannah River began development of its waste
         information tracking system at a cost of nearly $3 million with
         another $1 million in maintenance and support costs to date.
         Similarly, Oak Ridge began developing a waste information tracking
         system in 1996 and has incurred development costs of over
         $10 million. Also, during the 1990s, Sandia spent about $2 million
         on a failed implementation of a COTS solution and an additional $1
         million developing their current waste information tracking system.

                         Resolution of Prior Review Findings

         While the Department has taken preliminary steps to identify cross-
         cutting functions and develop common solutions to the long-standing
         problem of duplicative development, it has not adequately addressed
         issues disclosed in previous reports. For example, in May 1995 the
         Department's Financial Information Team found substantial
         duplication and redundancy within the Department's financial and

Page 6                                                     Details of Finding
                         business management systems. The Team recommended that a
                         Business Systems Integration Council be established with
                         representatives from all Departmental elements. Despite these
                         recommendations, the Department did not establish a council that
                         would have reviewed all planned system initiatives to assure
                         coordination among all elements. In addition, the Department had not
                         taken action on a July 1996 General Accounting Office (GAO) finding
                         that it should better manage its IT investments by developing and
                         maintaining a complete and accurate inventory of its information
                         systems, both Federal and contractor.


IT Investment Strategy   The Paperwork Reduction Act of 1995 and the Clinger-Cohen Act of
Requirements             1996 outline a number of requirements designed to help Federal
                         agencies better manage their information technology resources. The
                         Paperwork Reduction Act is the "umbrella" information technology
                         legislation for the Federal government, while the Clinger-Cohen Act
                         requires agencies to establish a disciplined approach to managing
                         information technology resources. The Clinger-Cohen Act mandates
                         that, among other things, executive agencies design and implement
                         processes for IT capital planning and investment control using IT-
                         related actions to enhance performance and results-based management.
                         These Acts require the head of each executive agency to design and
                         implement a process for maximizing the value and for assessing and
                         managing the risks of information technology investments.

                         The Office of Management and Budget (OMB), the GAO, and the
                         General Services Administration (GSA) have developed guidance to
                         assist agencies in managing information technology. As we indicated
                         in our report on Commercial Off-the-Shelf Software Acquisition
                         Framework (DOE/IG-0463, March 2000), this guidance identifies
                         software standards as a key component of an agency-wide information
                         technology architecture. Additionally, agencies are required to
                         establish a method of evaluating new systems and proposed
                         modifications to current information systems to ensure that they do not
                         duplicate existing functionality and comply with an approved
                         Information Technology Architecture (ITA). The evaluation method
                         may be formalized to the point of a certification process, and at a
                         minimum, should require the establishment of metrics that, if met,
                         permit a proposed system to be ITA compliant.

                         In February 1997, the GAO issued Assessing Risks and Returns: A
                         Guide for Evaluating Federal Agencies' IT Investment Decision-
                         making. This guide provided instructions to ensure that IT investment


Page 7                                                                       Details of Finding
                         strategies are managed in an efficient manner to maximize the benefit to
                         the agency. The guide required agencies to track project cost data in a
                         readily accessible format. In addition, it promoted Departmental level
                         review for projects having (1) high-dollar, high-risk possibilities,
                         (2) cross-functional projects where two or more organizational units
                         would benefit from the project, or (3) common infrastructure support.


IT Investment Strategy   The Department has been unable to control development and eliminate
Needs Improvement        duplicative systems because it has not fully developed and implemented
                         an application software investment strategy. While the Department has
                         developed a conceptual Information Technology Architecture Plan to
                         control development, the plan has not been finalized, provides only
                         general investment guidance, and is applicable only to Headquarters
                         elements. Despite Clinger-Cohen Act requirements, the Department
                         has delegated virtually all application software investment decisions to
                         program or field management level officials. The Department does not
                         maintain a comprehensive inventory of existing systems or in-process
                         development and is unable to maintain control over duplicative
                         development efforts. Finally, control over the financial impact of
                         application software investment decisions cannot be maintained
                         because Departmental elements do not accurately track software
                         development and implementation costs.

                                           Information Technology Architecture

                         The Department's efforts to develop and implement a Departmentwide
                         information technology architecture have not been effective in
                         controlling duplicative development. Despite a projected cost of about
                         $220 million, the architecture will address only about 10 percent of
                         information technology investments. While the architecture effort is
                         projected to eventually include operation and field offices, it will not be
                         applicable to contractors, a segment that accounts for about 90 percent
                         of the Department's $1.6 billion in annual IT expenditures. As
                         presently planned, the architecture will not achieve its intended purpose
                         of serving as a blueprint used to guide and constrain the development of
                         information systems, nor will it promote and facilitate interoperability
                         and seamless integration of data across the Department.

                                                   Investment Decisions

                         Even though the CIO has initiated several new management programs
                         to coordinate and control IT investments, the Department still does not
                         actively manage IT investments. For example, even though OMB


Page 8                                                                         Details of Finding
                     requires that system development be actively managed at the Agency
                     level, the Department has delegated development or procurement
                     authority for systems costing $50 million or less to field sites. Such
                     action excludes virtually all systems from the CIO's review or
                     concurrence process and from any direct Federal involvement.
                     Consistent with its delegation approach, the Department does not
                     maintain control over all development activity because it does not
                     maintain a listing of applications or in-process development efforts.

                              Accounting for Development and Maintenance Costs

                     The Department is also unable to maintain control over the financial
                     impact of application software investment decisions because
                     organizations do not accurately track software development,
                     implementation and maintenance costs. At the sites we audited,
                     detailed cost data for individual systems was difficult to obtain. In fact,
                     many sites were unable to provide well-documented historical cost
                     information and up-to-date maintenance costs. Without accurate, up-to-
                     date cost information, management of IT resources throughout their
                     lifecycles is difficult.

                     Unless improvements are made in this area, the Department will have
                     difficulty implementing the Federal Accounting Standards Advisory
                     Board's Statement of Federal Financial Accounting Standards #10
                     (FASAB 10). This statement requires the capitalization of future
                     software costs regardless of whether the application is COTS,
                     contractor developed, or internally developed. The statement was
                     intended to help Federal entities better manage their operations and
                     achieve operational performance objectives by measuring the costs
                     associated with software acquisitions. Processes to ensure that
                     developing organizations capture all cost elements will be required
                     before implementation can be attempted.


Better Utilization   Because it lacks a strong applications software investment strategy, the
of IT Resources      Department has expended significant resources on duplicative systems
                     that could have been put to better use. While it was not possible to
                     capture all development costs because of poor recordkeeping, cost
                     estimates provided by the Department indicated that at least $38 million
                     had been spent developing duplicative information systems. These
                     resources could have been put to better use in the development and
                     implementation of modular, scalable corporate information systems that
                     could be used at most, if not all, Departmental sites. Application of
                     these funds to the development of corporate sponsored information
                     systems such as the CHRIS initiative could have greatly accelerated

Page 9                                                                    Details of Finding
                  Departmental progress. Furthermore, the Department's ongoing
                  development of a Business Management Information System to
                  implement a comprehensive, integrated, computer-based financial
                  management system could benefit from an increased coordination of
                  effort.

                                      Enhancing Performance Goals

                  The lack of a sound application software investment strategy adversely
                  impacts the Department's ability to maximize IT savings. While the
                  Department has reported over $325 million in IT savings and cost
                  avoidances over the past four years as part of the Strategic Plan,
                  additional opportunities for savings exist. The Department could
                  enhance its performance goals by including anticipated savings
                  associated with implementing a Departmentwide information
                  architecture and coordinating and consolidating development activities
                  across Departmental elements and contractors. Potential IT savings and
                  cost avoidances associated with the full deployment of a
                  Departmentwide information architecture and the development and
                  implementation of an effective application software investment strategy
                  are likely to be significant.

                  To its credit, the Department recognized during this audit that the area
                  of duplicative information systems development required specific
                  management attention. The Department’s CIO has also spearheaded an
                  initiative to establish a common IT infrastructure based on enterprise
                  standards and service level agreements. In conjunction with the Chief
                  Financial Officer and the Director of Management and Administration,
                  the CIO has developed a plan for modernizing Departmental systems.
                  Finally, the CIO has initiated a Total Cost of Ownership study to
                  determine all costs associated with IT and identify ways to reduce IT
                  costs to the Department.


RECOMMENDATIONS   In addition to ongoing management initiatives to reduce duplicative
                  information systems development the CIO should:

                     1. Amend the Department’s information technology architecture to
                        require that operations and field offices, as well as major
                        contractors, adhere to its provisions;

                     2. Actively manage the Department's IT investment decisions by
                        reducing the approval threshold for major IT investments by
                        programs, operations and field offices, and major contractors
                        and consolidate development activities where appropriate;

Page 10                                                          Details of Finding and
                                                                 Recommendations
             standards   and service
                 3. Require             level agreements.
                                that programs,     operationsInand conjunction   withasthe
                                                                      field offices,       Chief
                                                                                        well  as
             Financial   Officer
                      major       and the Director
                             contractors,               of Management
                                             better manage                  and Administration,
                                                               IT investments    and increase
             the CIOcontrol
                        has developed     a plan for
                               over potentially        modernizing
                                                   duplicative         Departmental
                                                                  efforts              systems.
                                                                           by developing    an
             Finally,accurate
                       the CIOandhascomplete
                                       initiated asystem
                                                    Total Cost    of Ownership
                                                           inventory    listing; study to
             determine all costs associated with IT and identify ways to reduce IT
             costs
                 4. toRequire
                       the Department.
                                programs, operations and field offices, as well as major
                      contractors, to maintain accurate data on information system
             In addition   to ongoing
                      lifecycle          management
                                 development              initiatives tocosts;
                                                  and maintenance         reduce
                                                                               andduplicative
             information systems development the CIO should:
                 5. Establish performance measures and goals as required by the
                 1. Government
                      Amend the Department’s
                                      Performance information
                                                       and Results technology      architecture to
                                                                      Act that incorporate
                      require thatsavings
                      anticipated   operation andand   field
                                                    cost     offices, as
                                                          avoidances       well as major
                                                                        associated   with the
                      contractors, of
                      deployment     adhere   to its provisions;
                                         a Departmentwide       information architecture and a
                      comprehensive application software investment strategy.
                 2. Actively manage the Department's IT investment decisions by
MANAGEMENT            reducing
             Management          the approval
                              generally   agreedthreshold     for major
                                                   with the facts         IT investments
                                                                     presented,  conclusionsby
REACTION     reached,programs,     operation
                        appropriateness        andrecommendations,
                                            of the   field offices, and major    contractors and
                                                                            and reasonableness
                      consolidate
             of the estimated       development
                                 potential   monetary activities
                                                          impact,where    appropriate;
                                                                    or other  benefits that may
             be realized. Management proposed corrective actions that are
                 3. Require
             responsive         thatofprograms,
                           to each                 operation and field
                                        our recommendations.               offices,
                                                                     Appendix       as well as
                                                                                 4 contains
                      major comments
             management      contractors,and better
                                                theirmanage
                                                       proposedIT corrective
                                                                   investments   and increase
                                                                               actions  in their
             entirety.control over potentially duplicative efforts by developing an
                      accurate and complete system inventory listing;

AUDITOR      Management's comments and proposed corrective actions are
COMMENTS     responsive to our recommendations. See Appendix 5 for detailed
             auditor comments.




Page 11                                                        Recommendations and
                                                               Comments
APPENDIX 1
SCOPE         The audit was performed between October 1999 and July 2000 at
              Department Headquarters in Washington, DC, four major operations
              offices, and their associated contractors. The Operations Offices
              included Albuquerque in Albuquerque, New Mexico; Oak Ridge in
              Oak Ridge, Tennessee; Richland in Richland, Washington; and
              Savannah River in Aiken, South Carolina. Our review did not include
              software applications or information systems associated with the
              Advanced Strategic Computing Initiative. The audit focused on four
              major areas of information systems development and implementation,
              which included human resources, electronic procurement, nuclear
              materials tracking, and waste tracking. The development of these
              various systems began as early as 1990 and some efforts are still
              ongoing.

METHODOLOGY   To accomplish our objective, we:

                 •   Reviewed applicable laws and regulations pertaining to the use
                     and acquisition of IT resources;

                 •   Reviewed reports by the OIG, the GAO, and various task
                     forces and advisory groups;

                 •   Held discussions with program officials and personnel from
                     the Offices of the CIO, Management and Administration,
                     Nuclear Materials Management Policy, Environmental
                     Management, and Worker Protection Program;

                 •   Held discussions with various officials and staff at the
                     operations offices and contractors;

                 •   Reviewed the Department's Information Architecture
                     Implementation Plan;

                 •   Reviewed numerous documents related to the development or
                     acquisition of various information systems;

                 •   Administered a questionnaire to Departmental offices to obtain
                     specific system information;

                 •   Obtained system inventory listings from Headquarters
                     program offices and various field and contractor sites; and

                 •   Reviewed the requirements of the Government Performance
                     and Results Act.

Page 12                                                   Scope and Methodology
          The audit was conducted in accordance with generally accepted
          Government auditing standards for performance audits and included
          tests of internal controls and compliance with laws and regulations to
          the extent necessary to satisfy the audit objectives. Accordingly, we
          assessed internal controls regarding the development and acquisition of
          information systems. Because our review was limited, it would not
          necessarily have disclosed all internal control deficiencies that may
          have existed at the time of our audit. We did not rely on computer-
          processed data to accomplish our audit objectives. An exit conference
          was held with Headquarters officials on July 20, 2000.




Page 13                                             Scope and Methodology
APPENDIX 2
                      RELATED OFFICE OF INSPECTOR GENERAL AND
                        GENERAL ACCOUNTING OFFICE REPORTS

  •   Commercial Off-The-Shelf Software Acquisition Framework, (DOE/IG-0463, March 2000). The
      Department had not developed and implemented software standards or effectively used
      Departmentwide contracts, key components of a COTS acquisition framework.

  •   The U.S. Department of Energy's Procurement and Assistance Data System, (DOE/IG-0436,
      January 1999). The system did not meet user needs or comply with current generally accepted
      system practices. Consequently, Departmental offices developed their own systems to meet
      information needs.

  •   Waste Inventory Data at Oak Ridge and Savannah River, (DOE/IG-0434, December 1998). The
      Department had not established minimum requirements for tracking or reporting waste inventory
      throughout the complex. As a result, each site had developed unique tracking and reporting
      processes specific for their site.

  •   The Review of the U.S. Department of Energy's Information Management Systems, (DOE/IG-0423,
      August 1998). The Department had not developed an IT architecture as of January 1998.
      Implementation of an IT architecture was required pursuant to the Clinger-Cohen Act of 1996. The
      Department had identified 13 corporate information systems as of December 1996 in their Baseline
      Analysis.

  •   Audit of the Department of Energy's Leased Administrative Facilities, (DOE/IG-402, April 1997).
      The Department's Financial Information Management System (FIMS) was not consistently or fully
      being used to manage leased space and often Departmental and field databases were being
      maintained in addition to FIMS. The FIMS data was found to be incomplete and not current. As a
      result, the Department leased more space than it used and could not determine its future leased space
      needs.

  •   Information Management: Energy Lacks Data to Support Its Information System Streamlining
      Effort, (GAO/AIMD-96-70, July 1996). The Department had allowed its management and
      operating contractors wide latitude in developing and implementing software inventory procedures
      and standards. As a result, the Department did not have a complete inventory of specific systems
      used by the Department and its management and operating contractors as required by the Paperwork
      Reduction Act and related OMB guidance.




Page 14                                                                                Related Reports
APPENDIX 3




                     INFORMATION SYSTEMS UNDER DEVELOPMENT


          System Category                             Number
          Waste Tracking                                5
          Procurement                                   11
          Human Resources/ Training                     32
          Medical/ Bioassay                             6
          Security                                      3
          Document Tracking                             6
          Nuclear Material Management                   2
          Other                                         66
          Total                                        131




Page 15                                                      Systems Under
                                                             Development
APPENDIX 4




See Comment 1




See Comment 2


See Comment 3


See Comment 4


See Comment 5




Page 16         Management Comments
See Comment 6




See Comment 7




Page 17         Management Comments
Page 18   Management Comments
Page 19   Management Comments
APPENDIX 5
                                       AUDITOR COMMENTS


  1. Appendix 2, Related Office of Inspector General and General Accounting Office Reports, lists
     reports that identify a long-standing problem with incomplete system inventories and duplicative
     system development. In addition, we analyzed other studies, such as that conducted at the Savannah
     River Operations Office, and discussed in the body of our report, in arriving at our conclusions.

  2. We believe it is appropriate to utilize the FY 2000 OMB budget submission statistics based on the
     scope of the audit and period of our review.

  3. We have modified the report to incorporate the requested change. Since the scope of the audit did
     not extend to validating reported savings, we cannot attest to the accuracy of management's
     assertion.

  4. We believe that the systems are adequately identified as either Federal or contractor in the body of
     the report. We have offered to share the results of our analysis in this area with management
     officials.

  5. We have modified the report to incorporate the requested change.

  6. As management acknowledges, we reviewed many systems and the results of that analysis is too
     voluminous to include in this report. As in our response to item 4 above, we have offered to provide
     management with the result of our analysis in this area.

  7. We recognize that the issue of requiring contractor adherence to an approved ITA will require a
     concerted effort. We believe, however, that the potential for savings in this area are significant and
     will most certainly far exceed the initial investment required. We leave the exact method of
     achieving the recommended result to management’s discretion.




Page 20                                                                              Auditor Comments
                                                                             IG Report No. : DOE/IG-0485

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.doe.gov


                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
